No. 20-315

 

IN THE
Supreme Court of the Anited States

 

JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,
Petitioners,
eu

ALEJANDRO N. MAYORKAS, SECRETARY OF HOMELAND SECURITY, ET AL.,
Respondents.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Members
of Congress as Amici Curiae in Support of Petitioners contains 4,859 words, excluding

the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

Bru Gavac Mad)
Brianne4J. Gorod

Counsel for Amici Curiae
